'-W
K:

A

i iV

1

I

C3

filedJUL 11 2019

In The
Supreme Court of the United States

Yisreal M.Kemp ,
Petitoner,
Versus
Boarjl of Regents of University System of Georgia,
Members, et. al.
*
Appellee - Defendant,

On The Petition for Writ of Certiorqri to the United
States Court of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

is) Yisreal M. Kemp
ProSe Attorney
P.O.Box 623
Atlanta, Ga 30301
Date: January 11. 2020
(678) 826-6817

received
JAN 14 2020
OFFICE OF THE CLERK
Wi IPRFME COURT, U.S.

ii

QUESTIONS PRESENTED
I.

Whether the Eleven Circuit Court error not
to determine the equal protection clause,
and the civil rights act of 1964, Title VI,
authorize Georgia constitution article eight
(of public postsecondary education) to
establish and uphold that Georgia State
University (the University System of
Georgia) has the authority and to not
actually conflict with the law. Concerning
an entry level classification choice for
applicate with qualified high criteria
standard, Minimum quilified criteria standard or
qualified least criteria standard for an evaluating
priority entry admission consideration for such
applicate

II.

Whether formal statute and congressional
law, maintain undergraduate admission
application fees to he included in a develop
free education in the University System of
Georgia.

iii

Parties To The Proceedings
And Rule 29.6 Statement
Petitioner in this case is Yisrael M. Kemp .
Defendant - Appellee,
Board of Regents of University System of Georgia
Officers Members , of Chair , Vice Chair , Chancellor
and /or Georgia State University Addmissions Office ,
Officer Members , Associate Vice President for admission
and housing , and Director of Undergraduate admission.

iv
TABLE OF CONTENTS
Page

Questions Presented ............ .....

li

Parties to the Proceedings.........

ill

Table of Contents .......... .............

iv,v

Table of Appendices ...............

... vi

Table of Cited Authorities ........

Vll

Petition for a Writ of Certiorari

1

Opinions Below............................

.... 2

Jurisdiction...................................

3

Statement of Case......................

3

Constitution Provision Involved

3

Procedural History and Court Ruling B1 Thru B6. 4-7
Proceeding from Circuit Court..........................

8

Reasons for Granting Petition..........................

10

I. Certiorari should be granted from
the Court to view entitlement
rights of applicants to choose from
various entry level classifications.
Appellee reserves choosing such a
decision for applicate about high
criteria or minimum least criteria.
II.

May the court grant certiorari for a
priority admission for all qualified
applicate with a choice entry level
classification evaluation

consideration for such applicate
with high criteria standard and
minimum (least) passing criteria
standard applicants
10

TABLE OF CONTENTS
A. High criteria standard applicants and minimum
(least) criteria applicants for admission evaluation
compliance. Not discriminating such type for
priority entry evaluation
11
B. Inner city and statewide high school graduate
(applicate) access to decide choice of appellee ... 12
Decision about entry level classification
acceptance.
III. The court should grant Certiorari and review
merit Entitlement rights of appellee compliance
for equal Education opportunity policy in Georgia
University System manual that are not in
undergraduate catalog authorizing with a
preference priority entry level classification
recognizing high criteria standard and minimum
(least)
criteria
standard
for
admission
consideration
13,14

Conclusion

15

VI

TABLE OF APPENDICES

Appendix A- APPEAL DISMISSED, of the United
States Court of Appeals for the Eleventh Circuit,
Dated January 30, 2019............................................... la
Appendix B- Order of the United States Courts of
Appeals for the Eleventh Circuit, Dated April 4,
2019
3a
Appendix C- Appellant Reconsider Appeal Motion, to
the United States Court of Appeals for the Eleventh
Circuit Dated, February 19, 2019
4a
Appendix D- Judgement of the United States District
Court Northern District of Georgia, Atlanta Division,
Dated July 28, 2008
20a
Appendix E- Order of the United States District
Court Northern District of Georgia, Atlanta Division,
Dated July 28, 2008
22a
Appendix F- Academic & Student Affairs Handbook
and Board of Regents of University System of G.A.
Policy manual
36a

Vll

TABLE OF CITED AUTHORITIES
Pages
Cases
Brown v. Board of Education,
347 US 483 (1965)....... .

4,5

Abigal Fisher u. Texas at Austin,
579 US (2016)..........................

6,7

Kemp v. Board of Regents, et al.
No. 1-07-CU-0212-BM
US Northern District Atl. Div
Kemp v. Board of Regents, et al.
Court of Appeal Eleventh Circuit
No. 18-IJ242-EE ..........................

8,12

8, 12

STATUES AND OTHER AUTHORITIES
U.S.C. Amed XIV,§
Civil Right Act Title VI...... .
GA Constitution Article 8
U.S. Ten Amendment

4,5,14
4,5,6,11
6
3, 6

42 U.S.C. §2000d .

4

42 U.S.C.§ 1983

4

42 U.S.C.§ 1981

4

PETITION FOR WRIT OF CERTIORAI
Petitioner, Yisrael M. Kemp respectfully
submits this petition for a writ of certiorari concerning
United States Court of Appeals for the Eleventh
Circuit Court which did not review appellee admission
evaluation program which determine priority
admission for high criteria and secondary admission
evaluation for minimum and least qualified standard
applicant, App. 32a ,App .38a .
The Eleventh Circuit appeal court did not
determine, the United States District Court Northern
District of Georgia, Atlanta division, review of
appellee undergraduate admission application fees
and its regents financial assistance program is not in
compliance of state equal opportunity laws for an
undergraduate tuition free education. App, 23a, App.
24a, App. 50a , App.51 .
The court did not review the court of the
Northern District of Georgia Atlanta Division,
Judgement that appellee admission evaluation
program which determine priority admission for high
criteria applicant and secondary evaluation admission
for minimum standard applicant. Discriminate
against minimum standard criteria applicant, for not
requiring such applicate with passing criteria
standard policy of grade point average or test score
grade average of 1.9 or 2.0 for priority (primary)
admission evaluation entry level classification. App.
36a, App. 37a , App. 38a App. 39a .
The panel of the Eleven Circuit and Judge
William Pryor, concerning District Court decision of
strict scrutiny and narrow tailoring of undergraduate
admission policy, race neutral. To have an essential
policy for applicants’ rights to an undergraduate

2

education implemented and that Georgia System of
University has jurisdiction approve a priority entry
level classification evaluation for guarantee minimum
passing criteria applicant and high criteria applicant
for automatic admission enrollment consideration.
App . 36a , App . 38a , App . 39a .
If not reviewed, the Eleventh Circuit decision
not determining Constitutional and Civil Right act
1964 entitlement VI, preferences for undergraduate
equal education opportunity evaluation
and
nondiscrimination
Federal , funded
program
guarantee. The issue for applicant (citizen) rights and
privilege standard still will maintain importance for
equal opportunity admission evaluation.
Opinions Below
The judgement of the United States Court of
Appeals for the Eleventh Circuit is reported at case no.
18-15242-EE and reproduce in the, App. la.
The eleventh circuit order dismissing denied
appeal for lack of Jurisdiction reported at 18-15242EE and reproduce in the appendix, App. 3A, App. 4a.
The order of the United States District Court
for the Northern District of Georgia Atlanta Division
is reported at Doc. 85# 1:07-CV-0212-BBM and
reproduce in the appendix. App. 22a . The judgement
of the United States District Court for the Northern
District of Georgia Atlanta Division is reported at Doc
86# 1:07-CV-0212-BBM and reproduce in the
appendix App. 20a , App . 21a

3

Jurisdiction
The United States Court of Appeals for the
Eleventh Circuit rendered its decision April 12, 2019.
Motion for reconsideration, denying constitution,
equal protection clause review and Civil Right Act
Title VI of 1964 review, dismissing for untimely lack
of jurisdiction. App. 3a.

Statement of Case
Appellee undergraduate admission program
entry level classification do not comply with equal
opportunity evaluating minimum qualify criteria
standard applicant and high qualified criteria
standard applicant for a priority entitlement
percentage enrollment consideration.
Appellee entitlement of rights and liberty for
such entry level classification they reserve for
themselves to decide selection of applicant" entry level
and refuse the equal opportunity policy for applicant
(people) rights and liberty. App.45a , App. 46a .

Constitution Provision Involved
The Fourteenth Amendment to the U.S.
Constitution provides in relevant Part: No state
shall...deny to any person within its jurisdiction the
equal protection of the laws and section 1.
Georgia Constitution Article VIII
(Post-secondary level)
The tenth Amendment powers reserved to the
states or to the people.

4

Bl. Procedural History and Court’s
Ruling
Petitioner file this suit under the equal
protection clause and Title VI of Civil Rights Acts
1964, 42 USC 2000d et. Seq, for federal funded
program nondiscrimination, claims 42 USC 1981 for
equal rights under law; 42 USC 1983, Civil Action for
deprivation rights. App. 5a. Defendants general
admission policy same 2008-2019 which did not
- provide entitlement rights to applicant, guaranteeing
an equal education opportunity entry level
classification choice for both minimum passing
criteria applicant and high criteria applicant for
undergraduate
admission
enrollment.
During
undergraduate admission evaluation appellee denied
appellant nontraditional category request and
withdrew appellant summer admission application
Ap 36a 37a.The District Court determine constitutional
entitlement to appellee was, normal in undergraduate
admission program to not entitle rights to traditional
and nontraditional applicant with a guarantee entry
level classification choice for various minimum
passing criteria applicant and high criteria applicant
for admission enrollment. App. 32a .
B2.
The District Court granted summary judgement
for appellee stating appellant provide no evidence of
legal standing for action of intent discrimination. The
circuit appeal court determine lack of Jurisdiction to
rule entitlement rights to appellant. App. la, App. 2a.
Several
United
States
Court
cases
about
undergraduate General Admission Program address

5

entitlement of genders and races for no
discrimination. The Brown v. Board of Education
Supreme court case, open doors for these very issues
in education about race and gender nondiscrimination
due to the case protection ruling and rights
separate
is
entitlement
that
but
equal
unconstitutional. Brown v. Board of Ed., 347US 483
(1954)
Throughout Admission process
appellee
demonstrated motive of discrimination beginning
February 14, 2006 appellee denied nontraditional
category request of appellant and denied appellant
Morris Brown College transcript as erroneous and did
not allow proper required information to get state and
FBI background check during first evaluation for
summer
admission.
Appellant
appeal
to
undergraduate admission program about requested
nontraditional category admission entitlement.
Appellee admission program cleared appellant
academic minimum passing criteria April 4, 2006 after
appeal and appellee continue with motive of intent
discrimination during its continue evaluation for
summer admission 2006. App. 13a , 14a .
B3.
Appellee May 19, 2006, withdrew appellant
summer application depriving its admission program,
due to not getting required necessary FBI check,
which appellee informed appellant of its institution
responsibility policy May 19, 2006 same day of denial,
appellee continue motive of discrimination was its
denial of uniform academic calendar policy, which was
to allow summer admission consideration evaluation

6

until June.App. 10a, App 11a, App. 13a App. 14a, App.
42a, App.44a , App. 45a , App 48a , App 49a .
Intent
discrimination
motive
appellant
presented, according to strict scrutiny analysts to
show fourteenth amendment violation and Title VI of
CRA 1964 violation was not rule from either court
District or circuit for appellant. The courts refuse to
determine appellee general admission policy are to
entitle rights to those with high criteria applicant and
entitle rights to minimum passing criteria applicant
with a guarantee choice entry level classification for
various type academic standard for admission
enrollment. App. 15, App.16, App.17, App.18 .
Appellee undergraduate general admission
policy constitution entitlement for the transition of
high school graduate to post - secondary institutions,
entry level classification is without percentage
priority admission for least (minimum) qualified
standard applicants and high qualified criteria
standard applicants. App. 38a , App . 45a , App . 46a
B4.
The fourteenth amendment section one, equal
protection clause authorize all person (citizen) within
Jurisdiction of United States with privilege rights and
Title VI of C.R.A of 1964 prohibit discrimination of
(applicants) citizen, in Board of Regents University
System of Georgia programs. The United States Tenth
Amendment authorize States of America and people of
America with rights in post-secondary education
matters, due to the United States Constitution and
Georgia Constitution Article VIII Section for post­
secondary education. Appellant
did exercise

7

entitlement rights for an undergraduate guarantee
entry level. App. 12a, App.l3a, App.l4a, App.36a App.50a ,
App.51.
The color (Rule) of the U.S. law permit
entitlement of appellee to set standard admission for
higher education and the color (Rule) of U.S. law
permit entitlement to guarantee rights for
undergraduate (citizens) applicants with an entry
level classification choice for tradition and
nontraditional applicant with various basic academic
qualification for admission enrollment. Appellee is not
complying meaning, with the color (rule) of U.S. laws,
rights to the people (applicant) entry level guarantee
to
undergraduate
admission
enrollment
consideration. App .32a , App. 36a , App. 49a .
R5.
Abigal Noel Fisher admission cases v.
University of Texas, Austin 579 U.S. address different
preference happening in admission program. The
reviving and not reviving policy for races, gender and
ethical to support diversity in admission program was
discussed and the University of Texas presented an
admission policy to the U.S. Court that they had
changed their automatic admission from 10% to 7% for
top studentsfromits state high school. The United
States court rule general admission race-based policy
at Texas was not unconstitutional. Abigal Fisher
maintain that preference policy for race ethical
diversity should not be justified. The entitlement
rights which Fisher and other University admission
program address to U.S. Court acknowledge
university authority to have various admission
standard. Appellant address these same entitlement
authorities of appellee to U.S. Court that the States of

8

America and its undergraduate university are
to comply people rights entitlement with an
undergraduate entry level guarantee choice for both
traditional and nontraditional applicant. App. 38a,
App.40a, App.47a.
B6.
Therefore; entitlement rights of traditional and
nontraditional people (applicants) in appellee
undergraduate catalog, manual and application, may
such entry level be considered for tuition free
guarantee admission enrollment. App. 45a , App. 46a ,
App. 50a , App.51a.
C. Proceeding from Circuit Court
Appellant appeal (notice) dismiss by the threePanel circuit Judge Marcus. William Pryor and Grant
for lack of Jurisdiction and untimely due to last
district court Judgment July 28, 2008 denying
appellant summary judgement. Appellant file petition
ten years later from district court last order for
necessity that appellee, the district court and the
circuit court of appeal become compliance with U.S.
Constitution
Equal
Education
Opportunity
Entitlement Right for different types of students to
choose entry level classification for admission
evaluation that my guarantee undergraduate
enrollment consideration. Presently appellee reserve
entitlement rights of various entry level classification
only to themselves to decide for applicant various
general admission entry levels. App. 6a , App. 7a ,
App. 36a , App.40 , App.49a .

9

At the request of Circuit Court Order, January
30, 2019 for appellant to file a reconsideration motion
to circuit appeal court about legal ground of appellee
entitlement rights that is noncompliance in Georgia
System of University admission program. App. 15a
App.l6a, App.30a, App.40a.
Appellant presented discriminated motive of
appellee and their discriminating general admission
policy not providing rights to applicant to select from
various entry level classification for admission
enrollment which did include grounds for states
university system having federal opportunity grant
program for tuition free undergraduate admission
education. App.38a , App. 45a, App. 46a , App. 50a .
Appellee policy to set higher or additional
requirement upon every applicant during admission
evaluation for their decision to enroll and not enroll
Prevents
applicant . App . 38a , App . 39a .
appellee from compliance of people (applicant)
entitlement rights to decide from appellee various
traditional and nontraditional category entry level
and may the U.S. Court of Supreme decide amongst
majority of judges for state-wide federal opportunity
grant program for tuition free undergraduate
education, App. 50a , App . 51a .
Appellant will have U.S. Supreme Court
judges view Circuit Court and District Court
acknowledge entitlement rights to appellee decision to
choose from their various entry level classification for
applicant admission enrollment. To also view, District
Court and Circuit Court deciding to acknowledge
appellee general admission program is to also entitle
rights to applicant to select from appellee various

10

entry level classification which presently
reserve to appellee. App. 36a , App.37a , App. 45a ,
App.46a.
I.

Reasons for Granting Petition

Petitioner Certiorari should be granted due to
Federal authority entitlement rights to states
university education system official for Equal
Education Opportunity compliance, App.36a, App.37a.
Present important Federal question, that
conflict with U.S. Court concerning applicant (People)
entitlement rights with state Education university
system which did not comply policy for People
(applicant) to decide their choice from various entry
level classification, such as special and exception entry
level classification for traditional and nontraditional
applicants. State System of University official should
also secure blessing of liberty to comply entitlement
classification to (People) applicant choice decision to
their various entry level classification. App. 23a, App.
40a , App. 49 .
II.
The Supreme Court of the United States should
grant certiorari because the analysis for appellee
general admission policy show discrimination against
applicant (student) with minimum passing criteria
during admission evaluation. App. 24a, App. 32a , App.
38a.
Appellee general admission program, the
Eleventh Circuit court did not determine institution
compel interest to have their entitlement rights for a

11

particular
applicants
non-discrimination
admission criteria selection to any undergraduate
qualified applicant (high qualified or least qualified) is
to improve percentage of such applicant choosing
an entry level classification for enrollment, App.32a,38a
Appellee is refusing to comply with applicant’s
evaluation constitutional and entitlement rights for
equal
opportunity
undergraduate
admission
evaluation. Appellee academic program, Reference for
Types of approval and notification of academic and
related matters is without admission undergraduate
catalogue policies in particular for a priority
admission consideration for such various types
applicants academic matter, App.45 , App.46 .
A.
Appellee do have various entry level
classification standard reserve (only) to appellee
(official) to decide selecting certain percentage of
applicant that has least and minimum qualified
standard but appellee policy state high criteria
standard is primary and minimum criteria standard
is secondary for special admission program that’s
reserve for admitting minimum low applicant
standard.
Undergraduate
admission
program
discriminates against minimum passing criteria
applicant during evaluation. App.38, App.47, App.48
The merit and purpose of appellee (official)
decision exercising authority entitlement right.
Appellee have yet in university system of education to
allow the people (applicant) with an admission system
which allow (Student) entitlement rights of essential
quality choice to decide of various entry level that

12

appellee only reserve for themselves. App. 32a ,
App.36a, App.45a, App.46a.
The court should grant certiorari because
Georgia State University Admission Program
(GSUAP) discriminated during admission evaluation
requiring primary admission for applicant with high
criteria standard and requiring secondary admission
for applicant with minimum limit passing criteria. In
lieu of policy remaining for minimum passing
applicants, appellee discriminated against minimum
criteria applicant App.24a,App-38a App.43a 44a App.45a

Entitlement of Rights and Liberty authorize
University System of Georgia admission in program
for appellee evaluating primary and secondary
applicant for admission that do not discriminate
either applicant base upon applicant high or minimum
passing criteria standard, appellee is refusing to
comply such entry level classification entitlement
rights and liberty to applicant (people). App. 32a, App.
43a , App. 44a .
B.
Appellee states applicant criteria consideration
is high school diploma with GPA Scale of 1.9 - 0 and
credit (curriculum) course hours admission standard
and lieu of normal high test scores standard is without
percentage regulations choice policies for least
standard applicant App.43a , App.44a
App.
39a, App. 40a. Appellee discriminate against such
applicant for priority admission evaluation App. 38 a,
App. 39a

13

The percentage plan of the University of Texas
of Albany and Georgia State University have is not the
decision for applicant to select such an entry level
classification. Limit admission top percentage plan is
reserve only to official of the University System of
Education to select such applicant, such entry level
classification should not only be reserve to official to
select such applicant, but that applicant can decide to
select such entry level classification. App. 49 a, App.
38a.
The entitlement of rights and privilege to
various entry level classification and not placing such
entry level on undergraduate application. Such as
Presidential and Exceptional entry level classification.
That’s based upon criterial of applicant minimum
standard or even just high school graduate diploma for
admission. Is the issue for an avenue entry level
classification percentage admission for various
academic matter applicant. App. 45a , App. 42a .

Ill
The Circuit Court and District Court refuse
important interest of entitlement rights of applicant
decision of appellee various reserve entry level
classification whether nontraditional category or any
standing entry classification policy are the sound
entitlement of rights and liberty of applicant choice
decision. Race neutral in Appellee general admission
program. May consideration in this review be given
that various entry level classification entitlement
which is required by official authority. They (appellee)
are reserving such rights and liberty for themselves in
the United States System of University. App. 5a, App.
6a.

14

The three panel circuit judges Marcus, William
Pryor and Grant refuse to remand appellant case to
district court. That appellee general admission
program policy for race neutral are to comply with
equal education opportunity structure. App. la, App.
2a, App. 3a, App. 12a .
The review for appellee authority of rights and
liberty decision applying various type of academic
status for admission approval for appellant was not
properly at liberty for appellant request. App. 15a,
App. 16a , App , 24a , App. 25a .
Appellant exercise entitlement of rights and
liberty for correct entry-level classification, which was
nontraditional category, but due to appellee general
admission policy that preference entitlement decision
was not appellant right to choose having an entry level
admission evaluation approve by appellee in their
undergraduate general admission program that
embody various type academic matter of applicant,
such as high criteria and low minimum criteria
applicant. Appellee has such policies as (footnote &
general notes) in The Board of Regents university
system of Georgia manual but appellee refused to
regulate one such percentage policy in its institution
catalogue. App.36a , App32a , App.45a , App.46a .
Petitioner (appellant) claim that such applicant
of either academic standard is entitled to equal
protection liberty laws for an entry level admission
classification that preference evaluating high criteria
and basic criteria of applicant for priority
undergraduate admission. App.36a , App.37a , App.7a
App.8a , App.9a , App.43a , App.44a .

15

CONCLUSION
The Court should grant the petition
respectfully submitted(s)
Yisrael M. Kemp
P 0 Box 623
Atlanta, GA 30301
Pro-Se
January 11, 2020
i

Appendix A
la

APPENDIX A - ELEVENTH CIRCUIT
OPINIONDATED JANUARY 30, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-15242-EE

YISRAEL M. KEMP
Plaintiff-Appellant,
versus
GEORGIA STATE UNIVERSITY ADMISSIONS
OFFICE, BOARD OF REGENTS OF THE
UNIVERSITY SYSTEM OF GEORGIA,
Defendant-Appellee.

Appeal from the United States District Court
for the Northern District of Georgia

Before MARCUS, WILLIAM PRYOR and GRANT,
Circuit Judges.
BY THE COURT:
This appeal is DISMISSED, sua sponte, for lack
of jurisdiction. We construe Yisrael M. Kemp’s notice

Appendix A
2a

of appeal as challenging the district court’s July 28,
2008 final judgement, its August 6, 2008 order
denying his construed motion to amend the complaint,
its August 13, 2008 order directing him to pay costs,
and its September 10, 2008 order denying his motions
to stay pending an appeal and for an extension of time
to file an appeal. Because Mr. Kemp’s notice of appeal
was not filed until December 29, 2018—more than ten
years after the last district court order was entered—
it is untimely, and we lack jurisdiction. See 28 U.S.C.
§ 2017(a); Fed. R. App. P. 4(a)(1)(A); Hamer v.
Neighborhood Hous. Servs. Of Chicago, 138 S. Ct. 13,
21 (2017); Green v. Drug Enforcement Admin., 606
F.3d 1296, 1300-02 (lPh Cir. 2010).
All pending motions are DENIED as moot. No
motions for reconsideration may be filed unless it
complies with the timing and other requirements of
the 11th Cir. R. 27-2 and all other applicable rules.

Appendix B
3a

APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-15242-EE

YISRAEL M. KEMP,
Plaintiff-Appellant,
versus
GEORGIA STATE UNIVERSITY ADMISSIONS
OFFICE, BOARD OF REGENTS OF THE
UNIVERSITY SYSTEM OF GEORGIA,
Defendant-Appellees.

Appeal from the United States District Court
for the Northern District of Georgia

Before MARCUS, WILLIAM PRYOR and GRANT,
Circuit Judges.
BY THE COURT:
Yisreal M. Kemp’s motion for reconsideration of
our January 30, 2019 order dismissing this appeal for
lack of jurisdiction is DENIED.
April 12 2019

Appendix C
4a

APPENDIX C
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

Yisrael M. Kemp
Appellant

CASE: 18-15242-EE

V
Board of Regents of University System of
Georgia; Georgia State Undergraduate
Admission Office: Defendants, Chancellor E.
Davis and Board Members; Director of
Admissions and Staff Appellee
Reconsider Appeal Motion

Appendix C
5a

Reconsider Appeal Facts and Legal Argument
Motions
Appellant challenge district court Judge B.
Martin’s order and judgement. (Doc 85). To have
denied prose objection to report and recommendation
order for Magistrate Judge Russell G. Vineyard (Doc
74, not to have granted appellant response motion for
Summary Judgement that there are genuine issues
for trail (Doc 80). Particular pro-se address to U.S.,
Court of Appeal for the Eleventh Circuit its
jurisdiction to reconsider above civil case facts for
legal grounds, showing appellee motives of intent
discrimination violation to title VI CRA 1964 within
its general admission program and appellant same
facts and legal analysis to show appellee
noncompliance to the United States Constitution
fourteenth Amendment Equal Protection Clause of
appellant rights.
Appellant maintain claims against appellee for
violation of rights under title VI of CRA of 1964 USC2000-d et seq, which prohibits any recipient of federal
financial assistance from discriminating on bases of
race, color or national origin. In the eleventh circuit,
reviewing strict scrutiny format which analysis of title
VI program of CRA 1964, is the same as equal
protection analysis to show motive discrimination
which is maintain in appellee’s general admission
policy and appellee motive action in processing
appellant’s application was not in accordance of Equal
Education Opportunity policy. Violation claim 42 US
CODE 1983 for deprivation of Right Committee
constantly from appellee and appellant maintain 42
USC 1981, equal rights under law claim damages

Appendix C
6a

incurred. Appellant hold Georgia Board of
Regents of The University System of Georgia and
board
members
in
violation
of Appellant
constitutional rights.
The All Writ (Reconsider) Act
Prose reconsider writing the necessity for
eleventh circuit court respective jurisdiction action of
appellant title VI CRA 1964 complaint, that appellee
disclose its approval policy of such classification
criteria of (various) type test score consideration and
(various) type credit (curriculum) course hours
consideration for entry admission enrollment
consideration become the approval and notification for
applicant choice selection ror admission enrollment
consideration to appellee admission program.
For the all writ (consideration) Act, codified at
28 USC — 1651, contain condition and limitation of
writ to the extent necessary to substitute appeal for
writ of error. Circuit courts of appeal for writ of error.
Circuit courts of appeals have power to issue writs of
specifically not in statue which may be agreeable for
usages and principle of law.
Appellant submit above motion for its authority
concerning jurisdiction and limitation laws for
appellant Title VT CRA compliant. For in 1984 D.C.
Circuit relied on Dean Foods authority for issuance of
an all writ order to compel the FCC to act on a petition
that it had allegedly delayed for almost five years
without acting on it. (FTCV. Dean Foods Co., U.S. 597
in 1984, the D.C. Circuit relied on case).

Appendix C
7a
Objection to appellee secondary admission
minimum standard requirement policy.
Appellant’s application process according to
minimum
undergraduate
system
(secondary)
admission requirement standard policy. Appellee
admission policy same 2006 & 2019. (BOR policy 2014
4.2 & 2006 402).
Circuit Court will find appellant Summer
application submitted February 14, 2006, appellee
committed numerous violations such as nontraditional category request as appellant denied,
which still is approve by Chief of Academic of
University System of Georgia and that such category
request require notification to academic program
Office was refused by appellee during evaluation for
classification. (Doc. 80, pg. 45). Appellant presented
(notice) appeal motion to circuit court to show constant
motive of intent discrimination action from appellee.
The appellee’s dual category for evaluating entry
admission consideration selecting priority admission
criteria applicate and determining which percentage
minimum criteria applicate to choose from admission
demonstrated even further during the processing of
application to decide appellant’s classification as
(regular) transfer, though non-traditional transfer is
one of two category for non-tradition category. The
district court determine it was reasonable for appellee
to decide appellant request for non-traditional
category to have been changed to regular transfer,
which appellant objected to. (Doc. 85, pg. 11). Judge
Martin’s decision that appellant failed to correct error
of appellee modifying appellant’s request for nontraditional category March 3, 2006. (Doc 80, pg. 47).

Appendix C
8a

Appellant inform U.S. Circuit Court of appeal
that during the processing of Summer Application,
Pro Se did not think appellee would have denied one
of two category choices for non-traditional traditional
category, which applicate selected due to minimum
admission criteria of such category for credit course
hours matter in lieu of grade point average (Doc 80,
pg. 44; Depo pg. 60, 13-21 and Doc 66, pg. 16, Depo pg.
86; 1-26 & pg. 87 of Depo 1-13). April 4, 2006 appellee
denied appellant in their admission program for
reason not according to non-traditional category, and
decided to use appellant’s GPA, discriminatingly and
stated general admission based largely on academic
and appellant don’t meet admission standards. (Doc
77, pg. 65 & Doc. 69, pg. 5). Appellee also stated that
appellant’s Morris Brown College transcript was
viewed as erroneously and without accreditation. (Doc
80, pg. 17 and Doc 77, pg. 49). Judge Martin states
appellee’s actions were entirely in line with regular
admission policy, appellant still objects to appellee’s
process application as not requested for a regular
transfer. (Doc 85, pg. 10). Appellant appeal that denial
to Georgia State University Admissions about
appellee’s discrimination, to sue, and not transfer
request but non-traditional transfer category. (Doc 66,
pg. 18, 19 & 20).
Appellee stated on May 5, 2006 that due to all
documents necessary for evaluating of appellant’s
academic was reviewed and found acceptable. (Doc
65 , pg.37 ). Appellant stated to circuit court of Appeal
academic facts and its record submitted April 4, 2006
and March concerning academic status. (Doc. 80, pg.
50). Appellee’s action was of intent discrimination.
April 4, 2006, denial into admission program and May

Appendix C
9a

5, 2006, appellee reason for denial was
appellant’s academic document was not viewed for
acceptance. (Doc 77, pg. 66 & 68). During the
processing of appellant’s application for admission
evaluation appellee denied and then refused to
disclose important information procedure concerning
Dean of Student policy. Appellant informed appellee
of name changes and robbery crime in February 14,
2006 on application (DOC.80page 2-3). Appellee used
general admission normal partial disclose policy of
dean of student review in a discriminating manner in
processing
admission
appellant’s
application.
Appellant met with Acting Director of Admissions,
Judith Carson, on May 4, 2006 and met with Designee
Lanetter Brown of Judicial Affairs for Dean of
Students, and appellant informed both personnel of
out of state crime. (DOC.80pages 4-5) and Doc 66, pg.
32). Both personal in individual or official capacity
refuge in disclose necessity for FBI background check.
Appellee denied appellant on May 19, 2006 into
Georgia State Admission Program for not getting an
FBI check, which appellee did not inform of necessity
until May 19, 2006 for FBI check. Same day appellee
denied prose for admission. (Doc 80, pg. 54 & Doc 63,
pg. 49).
Appellee institution responsibility policy and
undergraduate, general admission policy, do not have
regulation for applicant to meet specific with Dean of
Students nor do appellee regulate for State and/or
Federal Bureau Investigation requirement.
Therefore, appellee use disciplinary criminal
review in discriminating manner during appellant’s

Appendix C
10a

first and second application Summer review
process 2006 semester, and appellee same
institutional responsibility policy 2019, do not disclose
Dean of Student meeting and guideline for state and
federal background check (DOC.80page 15 and GSU
catalog, 2019, 1115 policy omitted).
Judge Martin further stated on May 19, 2006
withdrawal of appellant’s application was taken for
legitimate non-discriminating reasons ( DOC.85 page
11 ). Judge Martin also because class began May 15,
2006, for Georgia State University program was also
reason for appellant’s application being withdrew.
(Doc 85, pg. 4). Appellant note to United States Courts
of Appeals, Eleventh Circuit, appellee uniform
academic calendar policy allow semester application
entry evaluation latest deadline date to be until one
day before registration dates and or until one day
before drop and add class date. Georgia State
University program allow flexible semester entry
evaluation deadline dates.
Therefore, Georgia State University program
Summer semester admission evaluation policy for
2006 as well as 2019, allow flexibility for latest entry
evaluation date to be up until June. Presented in
uniform academic calendar policy, which was not
educational opportunity presented to appellant. (BOR
manual 3.4.2 and academic and student affairs
handbook 2.1 ).
Further evidence of motive discrimination for
Appellee is the Board of Regents of the University
System of Georgia, August 9, 2006, declined to grant
appellant application request for review concerning

Appendix C
11a

president Patton of Georgia State University
final decisions, which determine to withdraw and
denied appellant into GSU’s Admission program. The
Board of Regents (BOR) of University System of
Georgia refused to review the action of violation in the
processing of the appellant’s application. Especially
not
reviewing
race,
neutral
policy
or
nondiscrimination admission evaluation and the BOR
of the university system or Georgia is not maintaining
its equal educational opportunity policy for approve
type (applicate) classification related matters for entry
admission consideration policy. The Board of Regents
of university is currently in violation of the Title VI
CRA of 1964, due to its general admission program
policy, the limited admissions restrictions 7 percent at
Georgia State University guideline which is same as
2006 for admission entry level classification for each
type particular minimum criteria applicate with one
new needed
approval application entry level
classification for both various qualified high criteria
applicate and various least minimum criteria
applicate
for
admission
enrollment
entry
consideration in the university system of GA. (Exhibit
4-special admission policy 3.2.6).
Therefore, the limited admissions restrictions
at the university of Georgia policy and appellee related
matters policy for approval entry level classification
for various types of criteria applicate. (Exhibit 5 —
types approval academic matters policy). Circuit
court, may find that the Board of Regents of
University system of Georgia to develop these policies
for equal education opportunity with an additional
approval application entry level classification for both
various high and minimum criterial application for

Appendix C
12a

priority
admission
enrollment
entry
consideration in the university system of Georgia
general admission program.
Conclusion of Application Process
Appellant have presented facts showing
appellee’s general admission policy were used in an
official and an individual capacity violating
declaratory decree. Judge Martin did not sustain
appellant. Valid fact finding or legal analysis to
appellant title VI CRA of al964 compliant. Appellant
(Black race) and male gender not primary motive of
appellee action under the color of law, appellee use
appellant admission criteria, under color of law in
admission policy to withdraw application and deny
appellant admission entry. Appellee improve policy,
student diversity, and legal argument for complying
with Affirmative Action, (citizens) students still are
denied their right to select various types of admission
standard criteria which only approve for Presidents or
designee at institutions. Appellant present reconsider
appeal document to United States Court of Appeal 11th
Circuit Court validate facts and legal analysis of
appellant response for a reversal or remand civil case
motion, that there is a genuine issue for trial,
summary judgement motion which Judge Martin
found in Section (D) court order to have been denied
(Doc. 85).
Appellant address to circuit appeal court,
appellee violated declaratory
decree of appellant
rights; the Fourteenth Amendment U.S. Constitution,
section one, the equal protection clause and Violated

Appendix C
13a

Appellant Title VI Civil Rights Act of 1964 to be
no discrimination in appellee’s admission programs.
Pro Se (appellant), resubmit such cases as
(plaintiff) Annie R. Busby vs Defendant City of
Orlando and others, 931F. 2d 764, (Doc 63, pg. 23).
Appellant Busby, appeal to Eleventh Circuit about
various matters of Jury verdict claims of defendants
(appellee), in their individual and official capacity.
Appellant Busby was viewed by circuit to have
produced evidence appellee’s acted outside scope of
qualified immunity, and started acting not in good
faith one is not entitled to directed verdicts, Peppers
v. Coutes 887 F; zd 1493, 11th Circuit reverse district
court verdict in favor of defendants in their individual
capacities on Section 1983 claim racial discrimination,
because defendant (appellant) due to employer can be
in violation. Respondent superior makes an employer
liable for action of employee when action take place
within scope of employment alleged deprivation
(Fundiller vs. City of Cooper City 777 f. 2d 1436
Casual Connection). Board of Regents of University
System of Georgia and or Georgia State University
Admission Office, Director and Staff can be in
judgement of claim violation, and held liable for GSU
Admission Program, action in the processing of
appellant admission applications. Such violations of
processing appellant application for secondary entry
consideration, modifying appellant’s right for nontraditional category for transfer entry is a violation.
Refusing Morris Brown College transcript and
refusing appellant to meet with the Dean of Student
Affairs and refusing important information of
necessary FBI background check in a timely manner
for documentation deadline and appellee violation of

Appendix C
14a

not allowing appellant allotted time for
processing Summer application during month of June.
Therefore, such approval policy of nontraditional category was appellant right to not have
application withdrawn and admission denied.
Appellee motive of discrimination are a violation of
declaratory degree of the 14th Amendment, Equal
Protection clause and Title VI of CRA 1964.
Legal analysis, minimum and high system
admission standard approval policy are rights in
Georgia Constitution and the U.S. Constitution for
(citizens) applicant (various) type criteria to be
approved in
institution
catalogs
and
on
undergraduate applications.
Strict scrutiny standards for measuring
constitution equality in higher education general
admission policy also determine narrow tailoring civil
right entitlement regulation improvement. The
suspect classification appellee still maintain in
Georgia system of universities. The United States
Court of Appeals for the Eleventh Circuit Court can
best view such reference for types of approval and
notification of academic and related matters and
polices (Exhibit 5 type approval academic), which
allows high and minimum various criteria standard
approval to president and designated personal of
institution. The Board of Regents of University
System of Georgia refuse the approval and notification
policy not be institution catalog. Therefore, in
violation of Title VI CRA 1964 Depriving Citizen
(applicate) of such approve entry level classification on
undergraduate application.

Appendix C
15a

These examples in approval notification
academic policy, which the Board of Regents of
University System of Georgia endorse, list high and
minimum standard criteria applicate, appellee allow
entry enrollment should either applicate criteria in an
area is not standard acceptable. For example, Board of
Regents of Georgia, limited admission policy of such
modified applicate application classification, and
institution of University Systems of Georgia are
authorize particularly, limited admission restriction
policy for applicate, ones without high test scores, and
such applicate are secondary for admissions (Exhibit
6 Exception special Groups 4.2.12. Approve academic
matter category exception, Special and other limited
admission category for applicate address court rulings
of non-traditional and traditional
applicant
classification entry admission consideration. The
Board of Regents’ policy show special admission
category freshmen and traditional freshmen have
options of other criteria evidence for college readiness
such as social security number, zip code and their
percentage enrollment authorize to be based on entire
previous year enrollment of first-time freshmen head
count. Limit admission category classification restrict
those particular not of traditional classification to
seven percent for entry admission consideration, at
Georgia State University (Academic Policy 3.2.6.).
Therefore,
appellee approve notification
academic matter policy that have different limit
admission restrictions for evaluating traditional and
non-traditional applicate for entry consideration are
violating Title VI of CRA 1964, for not approval
notification academic matter policy, that allows
various types of classification criteria of high and

Appendix C
16a

minimum standard applicate, that don’t meet
areas of standard evaluation requirement such as test
scores and grade point average. Institution approval
authority and not approval various type of academic
matter in undergraduate catalog is depriving (citizen)
applicate of equal education admission opportunity,
which Title VI of Civil Rights Act of 1964 do authorize
for applicate admission form.
Further to note, Circuit Court of Appeal
appellant legal support views appellee approve policy
for determining test scores, a combination calculation
for minimum and high standard requirement during
admission evaluation. Appellee use from research and
policy analysis search, an academic standard of Board
of Regents. For 2004 grade point average, 3.08 letter
grade B and year 2017 2.91, letter grade B authorize
Georgia State University and the University of
Georgia minimum standard requirement to begin with
letter grade B or letter grade below B and S.A.T. score
minimum average standard requirement for 2004 and
2017 was number fact 1000. Because GSU’s admission
requirement for determining minimum admission
standard is based upon previous year of freshman
category enrollment academic factor means 2018 as
well as 2019, minimum standard requirement
authorize GSU admission to determine during
application evaluating. These applicate with letter
grade of B and under letter grade of B and applicate
with test score number factor in range of 1000 are
minimum standard applicate (limited admission) for
entry consideration (DOC. 63 pg. 64 Policy 1120.30).
Appellee still approve only those with high test scores
for primary admission entry and don’t approve in
undergraduate catalog applicate of either high test

Appendix C
17a

score and, those secondary applicate with
minimum test score that both category applicate
minimum and high applicate standard, each combine
entry level
classifacation
(types)
can
be
authorize for Georgia system of university (citizen)
applicate. Therefore, applicate (citizen) constitution
and Title VI CRA, 1964 Right are disclosed not
in Undergraduate catalog and to be established on
undergraduate admission application.
Legal Cases Claims and Violation Decided
and Legal Court Decision
Appellant 14th Amendment, equal protection
clause and Title VI of Civil Rights Act 1964, Motives
of Intent Discrimination Legal Issues, 42 U.S. Code
2000d-l
which prohibits discrimination under
program and activity receiving federal funds and
its action of violation 42 U.S. Code 1983, claim
appellee did deprive of equal education (admission)
opportunity and U.S. Code 1981 claim Equal Rights
under law, appellee not disclose and allow approve
education civil right opportunity in University System
of Georgia, that incur liability damages.
Appellant have presented cases of constitution,
declaration and Title VI of CRA of 1964 rules to
upheld.
Abigal Noel Fisher addressed affirmative action
program in admission particular top 10 percent plan
and race-based policy in a legal argument to the U.S.
Court for denial, in University of Texas at Austin
admission program. The Supreme Court determined
after remand to circuit court which did uphold

Appendix C
18a

university
admission program
diversity
(ethical) policy. The Supreme Court’s second decision
ruled that the University of Texas’ admission use of
race in their admission policy passes the constitution
and Title VI CRA 1964 muster and favors Texas’
admission program legal views for denying Abigal
Fisher qualifying criteria for undergraduate
admission program. Fisher vs. University of Texas 579
U.S. (2016),
Jennifer Johnson’s case decided in 2001
concerning the University of Georgia Admission
Program, race-based policy was not in the meaning
and method views of strict scrutiny for constitution
standards. Johnson’s legal team and the University of
Georgia’s legal team rested their case that raceneutral and student body diversity policy for
constitution principle achievement determine from
court of appeals for 11th circuit ruling was acceptable,
and case not appealed. (263 F. 3dl234 11th Cir, 01).
Appellant address case of Abigal Fisher vs. Texas and
Jennifer Johnson vs. University of Georgia. Each case
involved discrimination of a university admission
program. The legal weight matter of 14th Amendment,
equal protection clause and Title VI of CRA 1964 was
highlighted in each legal complaint. The different
university in each case addressed affirmative action
compliance for program equal education admission
opportunity.
The U.S. Circuit Appeal Court may maintain
that demographic challenges of graduates in
secondary institutions for entering post-secondary
universities, (citizens) applicate is without state
university system approving their authorize right in

Appendix C
19a

under-graduate catalog admission program and
on applicate (contract) application. Affirmative action
requirement merit minimum and high admission
standards of applicate criteria that a new additional
choice entry level maintain such applicate type entry
classification and type academic level,for priority
entry admission enrollment consideration for equal
education admission opportunity.
i
Therefore, appellee authority that’s approving
academic type for additional or higher requirement
policy compel approval as well for such applicate au - thority themselves to select various high and least quali , - fled standard type criteria for priority admission enroll - ment level consideration .
Relief in case for claims and liability one hundred
thousand dollars. In junction relief case to stop and improve
limit admission restriction policy of appellee and institution
responsibility policy for applicate state and federal back ground check to be disclosure

Appendix D
20a

APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
YISRAEL M. KEMP,
CIVIL ACTION
FILE NO. 1:07CV-0212-BBM

Plaintiff,
vs.
. GEORGIA STATE
UNVIERSITY ADMISSIONS
OFFICE, et. al,
Defendants.

JUDGEMENT
This action having come before the court,
Honorable Beverly B. Martin, United States District
Judge, on the Final Report and Recommendation of
the Magistrate Judge, and the court having adopted
said recommendation and granted defendants’ Motion
for Summary Judgement, it is
Ordered and Adjudged that plaintiff take
nothing; that the defendants recover their costs of this
action and the action be, and the same hereby is,
dismissed.

Appendix D
21a

Dated at Atlanta, Georgia, this 28th day of July,
2008.

JAMES N. HATTEN
CLERK OF COURT
By: s/Amanda Querrard
Deputy Clerk
Prepared, Filed, and Entered
In the Clerk’s Office
July 28, 2008
James N. Hatten
Clerk of Court
By: s/Amanda Querrard
Deputy Clerk

Appendix E
22 a

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA ATLANTA DIVISION
YISRAEL M. KEMP,
CIVIL ACTION
FILE NO. 1:07CV-0212-BBM

Plaintiff,
vs.
GEORGIA STATE
UNVIERSITY ADMISSIONS
OFFICE, et. al,
Defendants.

ORDER
This matter is before the court on several
motions. Defendants Georgia State University
Admissions Office and Board of Regents of the
University System of Georgia have file a Motion for
Summary Judgement (Doc. No. 61), and there is a
Report & Recommendation authored by Magistrate
Judge Vineyard (“R&R”) recommending that
summary judgement be granted for the Defendants
(Doc. No. 74).
<
Plaintiff Yisrael M. Kemp (“Mr. Kemp”) filed
the following motions: Motion to Amend Response to

Appendix E
23 a

Defendants’ Motion for Summary Judgement (Doc.
No. 78); Motion to Inform Court (Doc. No. 79); and
Supplemental Motion Summary Judgement (Doc. No.
80). The Defendants have moved to Strike Plaintiffs
Supplemental Motion for Summary Judgement (Doc.
No. 84).
I.

Factual and Procedural Background

Mr. Kemp applied for admission to Georgia
State University (“GSU”) for the summer semester on
February 12, 2006. He checked the application box
indicating that he was applying as a Non-traditional
student. He also indicated that he previously
committed a crime. The application instructed that
the applicant should attach an explanation with the
dates and circumstances of the crime committed. Mr.
Kemp’s attachment, in full, read: “I Yisreal M. Kemp
under my previous name Willie James Kemp arrested
in Atlanta Ga. 2003 for a robbery which I serve time
for in 1986- 88 but GA. did not close the case until
2003.” (Dep. oi Yisrael Kemp, Ex. 2)
GSU has various admission policies, depending
on the type of student who applies. Transfer
applicants are those applicants who have previously
attended a regionally accredited college or university.
Transfer applicants must have at least a 2.5
cumulative grade-point average (“GPA”) in the
college-level courses, among other requirements. Nontraditional applicants are those applicants who have
been out of high school for at least five years, hold high
school diploma from an accredited high school, have
not attended college with the past five years, and have
earned fewer than 30 transferable semester credit

Appendix E
24 a

hours. An applicant who has earned 30 or more
transferable semester credit hours but has not been
enrolled in any college level classes for five or more
years will be considered a Non-traditional Transfer
applicant. Such applicants may be admitted as
Limited Admission Transfer Students even if they do
not meet the GPA requirements for Transfer
applicants.
Mr. Kemp supplied GSU with a copy of his
transcript from Morris Brown College, where he
completed over 30 semester hours of college-level
work. GSU designated him a Transfer applicant, even
though he had checked Non-traditional on the
application form. On March 3, 2006, GSU sent Mr.
Kemp a letter acknowledging receipt of his application
and asking him to verify certain information,
including that his student type was Transfer. Mr.
Kemp did not respond in any way to the March 3
letter. On April 4, 2006, GUS wrote Mr. Kemp to notify
him that his application for admission had been
denied because he fell below the minimum cumulative
GPA requirement for Transfer applicants. Mr. Kemp
appealed the decision and requested consideration as
a
Non-traditional
Transfer
applicant.
GSU
subsequently determined that he as academically
acceptable for admission in that category.
GSU has a policy of requiring an applicant who
has been found guilty of a crime to interview with the
Dean of Students before being cleared for admission
and class registration. On May 3, 2006, Mr. Kemp
supplemented his explanation of his criminal activity
with a sheet of paper explaining that he had been
arrested for a few felonies, including several drug

Appendix E
25 a

charges and several theft charges, but no violent
crimes. He also executed a release authorizing GSU to
obtain information on his criminal background. On
May 5, 2006, GSU notified him that, due to his prior
criminal convictions, he would be required to
participate in an interview with the Dean of Students,
on May 8, 2006, Mr. Kemp provide GSU with a print­
out from the Florida Department of Corrections
website that listed his criminal convictions and
incarcerations. The next day, Mr. Kemp met with
Lanette Brown, GSU’s Judicial Affairs Officer in the
Office of the Dean of Students. On May 12, 2006, GSU
obtained Mr. Kemp’s Georgia criminal history report,
which showed previously undisclosed convictions for
burglary and trespass. On May 19, 2006 GSU asked
Mr. Kemp to submit two letters of reference and a
National Fingerprint record from the FBI. Meanwhile,
classes for the summer semester had begun on May
15, 2006. Accordingly, GSU notified Mr. Kemp on May
19, 2006, that his application was being withdrawn
from the 2006 summer semester because the Dean of
Students review had not been completed. That
withdrawal had no effect on the ongoing review by the
Dean of Students of Mr. Kemp’s criminal history.
On June 5, 2006, Mr. Kemp submitted another
appeal complaining that GSU’s race neutral policy of
admissions had hindered his ability to be accepted.
GSU informed Mr. Kemp that he had in fact been
admitted pending the Dean of Student’s review of his
criminal history. His application was still in process at
the time, so no review or appeal was appropriate. To
date, GSU still has not made a final decision as to
where Mr. Kemp will be permitted to enroll in classes

Appendix E
26a

because he has not yet submitted the letters of
reference or fingerprint record.
Mr. Kemp filed this lawsuit on January 24,
2007. His claims are based on 42 U.S.C. § 1983 and
Title VI of the Civil Rights Act of 1964. He alleges
generally that the Defendants discriminated against
him on the basis of this race (African American) and
his gender (male) in denying him admission to GSU.
The named Defendants are the GSU Admissions
Office and the Board of Regents of the University
System of Georgia.
II.

Analysis

The court will address each outstanding motion
separately.
A. Mr. Kemp’s Motion to Inform Court
The court construes Mr. Kemp’s Motion to
Inform Court as a Request for extension of time. The
court understands Mr. Kemp to have requested until
July 15, 2008, to file his Supplemental Motion for
Summary Judgement. He did in fact file a motion on
that day. Therefore, his request for an extension is
GRANTED, nunc pro tunc.
B. Mr. Kemp’s Motion to Amend Response
to Defendants’ Motion for Summary
Judgement
This Motion is styled a Motion to Amend,
but in fact it appears to be Mr. Kemp’s response to the
Defendants’ Statement of Material Facts. The

Appendix E
27a

Defendants filed their Statement of Material Facts on
December 26, 2007. Mr. Kemp’s request to amend was
filed on July 3, 2008, after the Magistrate Judge
issued the R&R, and well after the appropriate time
for a response had passed. His Motion is untimely and
will be DENIED.
C. Mr. Kemp’s Supplemental Motion for
Summary Judgment and Defendants’
Motion to Strike
,
With his self-styled Supplemental Motion for
Summary Judgment, Mr. Kemp attempts to add a new
claim based on 42 U.S.C. § 1981. Plaintiffs may not
“raise new claims at the summary judgment stage.”
Gilmour v. Gates. McDonald & Co.. 382 F.3d 1312,
1314 (11th Cir. 2004). This claim is not properly before
the court, and will not be addressed. The rest of Mr.
Kemp’s Motion appears to be his objections to the
R&R. He objects to specific findings by the Magistrate
Judge and includes citations to the R&R. Because Mr.
Kemp is pro se, the court will grant him some leeway.
The Supplemental Motion for Summary Judgement is
DENIED, but the court will consider the document to
the extent that it contains objections to the R&R.
The Defendants have moved to strike Mr.
Kemp’s
Supplemental Motion
for
Summary
Judgement on the ground that it is untimely filed.
Summary judgment motions were required to be filed
within 20 days from the date of the close of discovery,
or December 30, 2007. Both parties moved for
summary judgement at the time, but Mr. Kemp’s
motion failed to comply with the Local Rules. His
attempt to amend his motion to bring it into

Appendix E
28a

compliance failed, and the Magistrate Judge struck
his pleadings. He has now filed this document. The
court agrees that a new motion for summary
judgement would be untimely at this point, but review
of the document reveals that it is Mr. Kemp’s attempt
to make objections to the R&R. Accordingly, the court
will consider it for that purpose only. The Motion to
strike is DENIED.
D. Defendants’ Motion for
Judgement and the R&R

Summary

The court has reviewed the comprehensive R&R
completed by the Magistrate Judge and agrees with
its conclusion. The court has also reviewed Mr. Kemp’s
filings and concludes that he has not valid objections
either to the factual findings or the legal analysis of
the R&R. Accordingly, summary judgement will be
granted in favor of the Defendants, for the following
reasons.
“In every suit there must be legal entity as the
real plaintiff and he real defendant.” Lovelace v.
DeKalb Cent. Prob., 144 Fed. Appx. 793, 795 (11th Cir.
2005). The capacity of an entity to be sued is
determined by the law of the state in which the district
court sits, Georgia in the case Lawal v. Fowler 196.
Appx. 765, 768, (11th Cir. 2006) Georgia recognizes
only three categories of legal entities: natural persons;
artificial persons such as corporations; and ‘quasi­
artificial persons as the law recognizes as being
capable to sue.’” IcL (quoting Ga. Insurers Insolvency
Pool v. Elbert Countv. 258 Ga. 317, 318, 368, S.E.2d
500, 502 (1988)). The GSU Admissions Office is not an
entity capable of being sued. It is not a natural person

Appendix E
29a

or corporation, but rather a division of GSU. The court
agrees with the analysis contained in the R&R that
holds that Georgia law would not recognize the GSU
Admissions Office as a quasi-artificial person capable
of being sued. Cf. Gunn v. Jarriel. No. CV 306-039,
2007 WL 2317384, at *5 (S.D. Ga. Aug. 10, 2007)
(finding the Medical College of Georgia not an entity
capable of being sued under Georgia law); William v
Ga. Den’t of Human Res.. 150 F. Supp. 2d 1375, 1377
(S.D. Ga. 2001) (noting that Georgia Regional Hospital
is an institution of the Georgia Department of Human
Resources, which in turn is an agency of the state, and
thus not capable of being sued); Peirick v. Ind. Univ,Purdue Univ. Indianapolis Athletics Den’t. 510 F.3d
681, 694 (7th Cir. 2007) (finding that the Athletics
Department was not a legal entity from the university
and not capable for being sued). Mr. Kemp’s claims
against the GSU Admissions Office cannot be
maintained and will be dismissed. 1
Mr. Kemp sued the Board of Regents of the
University System of Georgia (“Board of Regents”)
under 42 U.S.C. § 1983. The Board of Regents is an
arm of the State of Georgia, which has immunity
under the Eleventh Amendment. Section 1983 does
not create a waiver of state Eleventh Amendment
immunity. Thus, the Board of Regents may not be
subjected to suit under Section 1983. Marzec v.
Toulson. No. CV 103-185-2007 WL 1035136, at (S.D.
Ga. Mar. 30, 2007). Mr. Kemp’s Section 1983 claim
against the Board of Regents will be dismissed.
Finally, Mr. Kemp sued the Board of Regents
for a violation of his rights under Title VI of the Civil
Rights Act of 1964, 42 U.S.C. § 2000d et seq., which

Appendix E
30a

“Prohibits any recipient of federal Financial assistance
from discriminating on the basis of race, color, or national
origin in any federally funded program.” Burton City of
Belle Glade. 178 F.3d 1175, 1202 (ID* Cir. 1999). In the
Eleventh Circuit, Title VI analysis is the same as equal
protection analysis. Carr v. Bd. Of Regents of Univ. Svs. of
GA., 249 Fed. Appx. 146 (11th Cir. 2007). The plaintiff must
therefore demonstrate that the challenged action was
motivated by an intent to discriminate. Id. At 149. Such
intent may be established by evidence as such factors as
substantial disparate impact, a history of discriminatory
official actions, procedural and substantive departures
from the norms generally followed by the decision maker,
or

discriminatory

statement

in the

administrative history of the decision. ID.

legislative

or

Appendix E
31a

The R & R concludes, and the court agrees, that Mr. Kemp
has made no such showing. Mr. Kemp’s theory of his case
appears to be either that (1) someone in the Admissions
Office saw his application, noted that he was an African
American male, and intentionally made mistakes in the
processing of the application because of his race and
gender; or (2) that GSU’s avowed race neutral admissions
policy discriminates against him by failing to award him
preferences on the basis of his race and gender; or (3) both.
(Dep. Of Yisrael Kemp 69-78.) Operating under either
theory, Mr.

Kemp has provided

zero evidence of

discriminatory intent on the part of any GSU officials.

Appendix E
32a

Specifically, there is no evidence of any procedural or
substantive departures from the normal procedures
decisionmaker. GSU’s actions were entirely in line with its
regular admissions policies. The only action that can be
construed as at all irregular is the processing of Mr. Kemp’s
application as a Transfer student, even though he had
checked “Non-traditional” on the form. However, GSU’s
decision in so classifying him was reasonable, was not
corrected by Mr. Kemp despite his opportunity to do so and
was ultimately resolved by GSU itself. Mr. Kemp’s
application included his transcript from Morris Brown
College, reflecting enough credit hours to qualify him as a

Appendix E
33a

Transfer student. He was asked to review a summary of his
application sent by GSU and failed to correct the error.
When Mr. Kemp did ask GSU to consider him as a Nontraditional Transfer student, GSU agreed and cleared him
for admission, subject to its normal policy of interviewing
potential students with criminal backgrounds. Because
Mr. Kemp has a serious criminal past, and did not include
all relevant information in his initial communications with
GSU, GSU requested an additional fingerprint record and
letters of reference. Mr. Kemp has provided no evidence to
refute the conclusion that all of GSU’s actions were taken
for legitimate, non-discriminatory reasons.
Mr. Kemp has supplied the court with no other evidence
that could be used to prove discriminatory intent on the
part of GSU. To state a Title VI claim, the plaintiff must

Appendix E
34a

allege that, through state action, similarly situated persons
have been treated disparately, and that the disparate
treatment was motivated by race. Draper v. Reynolds, 369
F.3d 1270, 1278 n.14 (11th Cir. 2004). Mr. Kemp admits
that he is not aware of any students outside of his protected
class who were treated differently, much less students who
were similarly situated to him in all relevant aspects.
There is simply no evidence to support Mr. Kemp’s claims.
The Defendants’ Motion for Summary Judgment is
GRANTED.
III.

Conclusion

Based on the well-reasoned and thorough conclusions of
the Magistrate Judge, the court ADOPTS the Final Report

Appendix E
35a

and Recommendation [Doc. No. 74], which, along with the
foregoing, shall constitute the Order and Judgement of the
court. Defendants’ Motion for Summary Judgment [Doc.
No. 61] is GRANTED. Plaintiffs Motion to Inform Court
[Doc. No. 79] is GRANTED, nunc pro tunc. Plaintiffs
Motion to Amend Response to Defendants’ Motion for
Summary Judgment [Doc. No. 78] is DENIED; Plaintiffs
Supplemental Motion for Summary Judgment [Doc. No.
80] is DENIED; and Defendants’ Motion to Strike
Plaintiffs Supplemental Motion for Summary Judgment
[Doc. No. 84] is DENIED. This case is DIMISSED.
IT IS SO ORDERED, this 28th day of July, 2008.
s/Beverly B. Martin
BEVERLY B. MARTIN
UNITED STATES DISTRICT JUDGE

Appendix E
36a

1050 Policies and Disclosures
(//catalog.gsu.edu/associate20192020/universityinformation/ftpolicies-and-disclosures)
1050.10 Equal Opportunity Policy
Georgia State

University is an equal opportunity

educational institution. Faculty, staff and students are
admitted, employed, and treated without regard to race,
sex, color, age, religion, national origin, sexual orientation,
or disability. Georgia State University complies with the
Title IX of the Education Amendments of 1972, Title VI and
VII of the Civil Rights Act of 1964, the Civil Rights Act of
1991, Sections 503/504 of the Rehabilitation Act of 1973,
the Americans with Disabilities Act of 1990, the Vietnam

Appendix E
37a

Era Veterans Readjustment Assistance Act, as well as
other applicable federal,

state and local laws.

In

compliance with these laws and regulations, Georgia State
University has established the following specific policies:
Civil Rights and Equal Employment Opportunities Georgia

Stated

provides

equal

employment

and

educational opportunities for all individuals without
regard to race, sex, age, religion, color, national origin,
sexual orientation or disability. All Georgia State
University educational and personnel actions will be
governed by an affirmative action program developed in
compliance with applicable federal and state law and
regulations, and the policies of the Board of regents of the
University System of Georgia.

Appendix E
38a

3.1 Requirements for Undergraduate Admissions
The following section contains policies and procedures
related to admission of students. Institutions have the
authority, unless explicitly prohibited by policy, to require
additional or higher requirements for general admission to
the intuition or to special programs at the undergraduate
level institution seeking exception to policy must receive
approval from the Executive Vice Chancellor and Chief
Academic Officer of the University System of Georgia
(USG).
3.1.1.1. Freshman Requirements (Academic Affairs
Handbook) Applicants graduating from non-accredited
homeschools or high school with documentation of partial
completion of the RHSC may be admitted on the same basis

Appendix E
39a

and with the same conditions as other applicants with
deficiencies.
High School Grade Point Average (HSGPA)
A minimum 2.0 High School Grade Point average (HSGPA)
is required. The HSGPA is calculated on a 4.0 Scale using
the 17 units of the RHSC. Numerical grades indicated on
transcripts should be converted to letter grades based on
the conversion table provided by the high school.
Institutions must obtain these tables. The letter grades
should be converted to quality points as follows:
• A=4
• B=3
•

C=2

• D=1
• F=0

Appendix E
40a

3.1.1.7 Exceptions to Transfer Requirements
(.Academic Affairs Handbook)
Transfer applicants who do not meet USG requirements
may be considered for admission under the Limited
Admission provision. Institutions may admit up to 10% of
all transfer students under this provision. The base of this
percent is the number of unduplicated headcount new
transfer students admitted over the previous fiscal year.
This Limited Transfer Admission category is separate from
the Freshman Limited Admissions category.

I

Appendix E
41a

3.1.1.8 Academic & Student Affairs Handbook
Non-traditional freshmen must hold a high school diploma
from an accredited or approved high school as outlined in
Section 3.1.1.1 or have a state-issued high school

Appendix E
42a

equivalency certificate or diploma earned through the
successful completion of a high school equivalency test
approved by the Board of regents. The following high school
equivalency tests are approved:
•

GED

•

HiSET

• TASC
Students admitted as non-traditional are not subject to the
RHSC requirements
Students who were previously enrolled at a USG
institution and who now can be considered as nontraditional are not subject to previous RHSC requirements.
Institutions may set additional criteria for non-traditional
students.

Appendix E
43a

Non-Traditional Transfers
The number of non-traditional transfers an institution
enrolls will not be counted against the percent of Transfer
Limited Admissions allowed each institution.
Academic Calendar 2018-2019
Events - Three Week Session
Schedule of Classes
Feb 18
Registration
May 4 - May 12
Late Registration
May 13 -14
Class Begin_______
May 13_______
Events - Seven Week Session
Schedule of Classes
Feb 18
Registration
May - June 9
Late Registration
June 10 - June 14
Classes Begin
June 10

Appendix E
44a

USG Freshmen Admission Requirement
FOOTNOTES
1) The SAT FI formula uses the Old (pre-March 2016) SAT. New
(March 2016 or later) SAT scores are converted to the comparable old
SAT scores using the College Board conversion tables. New SAT
Reading test scores are converted to comparable old SAT Critical
Reading section scores and new SAT Math scores are converted to
comparable old SAT Math section scores.
The SAT FI formula is:
500 x (HSGPA) + Old SAT Critical Reading section
score + Old SAT Math section score
The ACT FI formula is:
500 x (HSGPA) + (ACT Composite x 42) + 88
2) The High School GPA (HSGPA) is calculated using the 17 units of
the Required High School Curriculum (RHSC) as outlined on the
USG’s Staving on Course document. The HSGPA is calculated on an
alpha four-point scale. Numerical grades provided on high school
transcripts are converted to letter grades based on the conversion table
provided

\

Appendix E
45a

by the high school. The letter grades are converted to quality points as
follows:
A=4

B=3

C=2

D= 1

F=0

3.4 Academic Calendar
3.4.1 Semester System
3.4.2 Uniform Academic Calendar
The academic calendar for each USG institution shall
consist of two semesters, each with at least 15 weeks of
instructional time, as defined by federal regulations issued
by the United States Department of Education. The 15
weeks of instructional time shall not include registration
or final examinations.
All USG institutions, with the exception of the Medical
School and Dental School at Augusta University and the

Appendix E
46a

College of Veterinary Medicine and School of Law at the
University of Georgia, shall begin and end classes for fall
semester and spring semester within the prescribed
periods set forth in the Academic & Student Affairs
Handbook. Each institution will determine all other
ACADEMIC PROGRAMS
Academic Affairs Division
Reference for Types of Approval and Notification of
Academic and Related Matters
Type of Action
Exceptions

to

Undergraduate
Admission
Requirement

Type of Approval
Notification Policy
^
(Board,
Manual
Chancellor,
Citation

President,
or
System Office)

Academic
Affairs
Handbook
Citation

Appendix E
47a

Administrative
Approval - Chief
Academic Office

3.2.6, 3.4,

& Executive Vice

4.2

3.5, 3.6,

Chancellor;

3.7,3.8,

Review Biennially

and 3.9

By the Board
Exceptions for Limited Admissions
Presidential
Approval

4.2.1.2

3.3

BOARD OF REGENTS POLICY MANUAL
Official Policies of the University System of Georgia
4.2 Undergraduate Admissions
Individuals seeking undergraduate admission to any
University System of Georgia (USG) institution shall meet
the requirements for one of the categories listed below and

Appendix E
48a

any additional requirements that may be prescribed by the
institution. Meeting minimum requirements does not
guarantee admission to any USG institution.
These policies must be applied in accordance with the
standards, procedures, and guidelines provided in the
Academic & Student Affairs Handbook
(https://www.usg.edu/academic affairs handbook/).

Any

exceptions to these admission policies may be made only
with written approval of the USG Chief Academic Officer.
4.2.1.3 Exceptions to Freshman Requirements
USG institutions may admit freshman applicants not
meeting freshman requirements but showing evidence of
college

readiness

categories.

using

the

following

alternative

Appendix E
49a

Limited Admissions Category
In recognition of the fact that a limited number of
applicants do not meet established standards but do
demonstrate special potential for success, institutions are
authorized to grant admission to a limited number of such
applicants. Institutions shall establish minimum criteria
for Limited Admission, which shall include the use of
multiple measures whenever possible, such as interviews,
portfolios, and records of experiential achievements. In
4.1 GENERAL POLICY ON STUDENT AFFAIRS
4.1.1 INSTITUTIONAL RESPONSIBILITY
BOARD OF REGENTS POLICY MANUAL
Admission, discipline, promotion, gradation, and
formulation of all rules and regulations pertaining to
students of University System of Georgia institutions are

r 1

Appendix E
50a

matters to be handled by the institutions within the
framework of policies and regulations issued by the Board
of Regents. Students failing to comply with Board of
Regents’ or institution rules, regulations, or directives
may face disciplinary actions.
Presidential Exceptions Policy 3.1.1.3
Each institution Presidents or his or her designee may
grant exceptions to the Limited Admission requirements if
the applicant shows promise for academic success and has
at least a high school diploma or a state-issued high school
equivalency diploma or certificate.
Presidential Exceptions are included as part of the
institution’s maximum percentage for Limited Admission.

r 1

Appendix E
51a

Applicants with Outstanding Scores
Institutions may grant admission to applicants who
demonstrate very high academic ability by achieving a
Total SAT or Composite ACT score in the upper five
percent of national college-bound seniors for the most
recent test year and who show other evidence of college
readiness.
BOARD OF REGENTS POLICY MANUAL
Official Policies of the University System of Georgia
4.4 Regents’ Financial Assistance
4.4.1 Regents’ Opportunity Grants Program
The 1978 General Assembly (H.B. 1463) amended the law
creating the

Georgia Higher Education Assistance

Authority so as to authorize the Board of Regents to award
grants, scholarships, or cancelable loans to economically

Appendix E
52a

disadvantaged students who are residents of Georgia
enrolled in a graduate or professional degree program in a
USG institution.

(

f

/i

